CERTIFICATE OF SERVICE
No. TBD
Amadou Sowe
Petitioner(s)
v.
Pall Corporation
Respondents)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That 1 am oyer the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, 1 served the parties in the above captioned matter with the Amadou
Sowe Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Raymond C. Baldwin, Esq.,
Seyfarth Shaw LLP
975 F Street, NW
Washington, DC 20004
(202) 828-3583
rbaldwin@seyfarth .com
Counsel for Pall Corporation

1;

i-*
*?•

Dan Abramovich
October?. 2019
SOP Tracking: Sowe-1296 Sheridan Avenue #2K-Ccver White

